                                            Jully 19, 2011

       y Lapping, Program Man
Ms. Judy                    nager
George B.
       B Thomas Sr.S Learning Academy
7210 Hid
       dden Creek
Bethesda
       a MD, 20817 7-4632

Dear Ms. Lapping:

The Officce of Inspecttor General (OIG), Corporation for NNational and Communityy Service
(Corpora ation), perforrmed an Evaaluation of Corporation G
                                                          Grants Awarrded to Georrge B. Thom   mas
Sr. Learnning Academ  my (GBTLA).. We conducted our eva    aluation in accordance w with the Quaality
Standard ds for Inspec ction and Evaluation issu
                                               ued by the C
                                                          Council of thee Inspectorss General onn
Integrity and Efficiency. This lettter (OIG Repport 11-19) p
                                                           provides thee results of o
                                                                                    our evaluatio
                                                                                                on.

Results: We intervie ewed a judgm mental samp ple of formerr and current AmeriCorp   ps members and
reviewedd their memb  ber files. We
                                  e found no exceptions
                                              e            o r instances o
                                                                         of noncompliance with
applicablle laws, regu            d grant provisions. We a
                      ulations, and                         also interview
                                                                         wed GBTLA  A’s Project
         a Project Accountant and policies
Director and                                  s and proced  dures. We d  did not note exceptions iin the
administrration of the grant. Overall results frrom our inte rviews and rreview of intternal contro
                                                                                                  ol
policies demonstrate
         d           e that GBTLA A’s financial,, grant, and program ma  anagement w  were complia ant
with the applicable
         a           la
                      aws, regulatiions, and graant provision
                                                            ns.

Objectiv
       ves, Method   dology, and Scope: The  e objectives of our review
                                                                      w were to de etermine
whether: (1) GBTLA’s financial, grant,
                                 g      and program man  nagement arre compliantt with the
applicablle laws, regu
                     ulations and grant provis
                                             sions; and (2
                                                         2) internal co
                                                                      ontrols are e
                                                                                  effective.

We cond ducted our fie
                     eld work at the
                                 t GBTLA sites at Silverr Spring, MDD, as well as various
placement sites within Maryland,, during Marrch 22-24, 20011. Our me  ethodology included
interview
        wing AmeriCo orps membe  ers, assessin
                                             ng the docummentation off AmeriCorpss member
compliannce standardds, written po
                                 olicies and procedures,
                                             p            a                       he scope of the
                                                          and internal controls. Th
review fo
        ocused on Grant No. 09A  ACHMD0010    0001 and off AmeriCorpss members e  enrolled from
                                                                                              m
Septemb ber 1, 2009, to January 25,
                                 2 2011.

Backgro ound: The Corporation
                     C            awarded
                                   a         GBTLA an Ame    eriCorps graant through tthe Marylandd
Governor's Office of Service and  d Volunteeris sm. The aw  ward sponsorred 32 AmerriCorps
volunteers involved in parent outtreach and communicati
                                                c            ion. The me embers were e placed with h
non-profiit organizatio
                      ons (placement sites) that served ch   hildren, youth and disabled persons, and
those strruggling econnomically. The
                                   T memberrs helped de     evelop volunteer program  m infrastructture
within the
         ese placeme                            heir service, AmeriCorpss members rreceive a
                      ent sites. In return for th
monthly living
          l           d, health carre coverage, education award, and training. Th
                stipend                                                             he grant awa  arded
by the Co orporation fo
                      or Fiscal Yeaar 2010 was  s $674,163, oof which $3777,590 was ffunded by th he
Corporattion and the remaining $296,573
                                  $          was GBTLA’s ccost share.


                    12          k Avenue, NW  Suite 830  Washingtonn, DC 20525
                     201 New York
                                 90  Hotline: 800-452-82100  www.cncssoig.gov
                       202-606-939

                         Senior Corps  AmeriC
                                             Corps  Learnn and Serve Am
                                                                       merica
We appreciate the time and assistance you and your staff provided during the review. If you
have questions or wish to discuss this letter, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov; Thomas Chin, Audit Manager, at (202) 606-9362 or
t.chin@cncsoig.gov; or Sheyi Idowu, Auditor, at (202) 606-9361 or o.idowu@cncsoig.gov.

Sincerely,



/s/

Stuart G. Axenfeld
Assistant Inspector General for Audit



cc:    Kim Mansaray, Acting Chief Operating Officer
       William Anderson, Chief Financial Officer
       John Gomperts, Director of AmeriCorps*State and National
       Rocco Gaudio, Deputy CFO for Grant and Field Financial Management Center
       Michael Berning, Director of Office of Field Liaison
       Margaret Rosenberry, Director, Office of Grants Management
       Claire Moreno, Audit Liaison, Office of Grants Management
       Jack Goldberg, Audit Resolution Specialist, Office of Grants Management
       Barbara Reynolds, Director of Maryland Governor’s Office on Service and Volunteerism
